No..

IN THE
SUPREME COURT OF THE UNITED STATES
JOSEPH J. CRAIG---Petitioner;
v.
STATE OF KANSAS
Respondent.
PROOF OF SERVICE
I, Joseph J. Craig, do swear or declare that on this date, ^-0- 5cq\c*\\>c^

., 2020, as

required by U.S. Supreme Court Rule 29,1 have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceedings or that party's counsel, and on every
other person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with firstclass postage prepaid, or by delivery to a third-party commercial carrier for delivery within
three calendar days.
The names and addresses of thoes served are as follows:
Kansas Attorney Generals Office
Criminal Litigation Division
Memorial Hall, 120 SW 10th Avenue, 2nd Floor
Topeka, Kansas 66612-1597
I declare under the penalty of perjury that the foregoing is true and correct.
Executed on

,2020

RECEIVED

SEP 3 0 2020
•FFICE OF THE CCERK
SUPREME COURT, U.S.

